AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 Department of Energy Efforts to
 Dispose of Hanford's Chemical
 Separation Facilities




 DOE/IG-0672                                February 2005
                                                -2-


benefits of using the facility as a disposal site. Instead, the study focused on characterizing and
performing technical analysis on the structural integrity of the facility. In studying the merits of
the Initiative, the Department did not ensure that the cost study was sufficient in scope, and once
completed, never reviewed the study to determine whether it was accurate and complete or
adequately supported the preferred alternative. As a result of not thoroughly evaluating the
feasibility of using canyon facilities for waste disposal, the Department may not realize savings
ranging up to $500 million.

This report highlights the importance of the Department's oversight of its contractors' activities to
ensure that decisions are based on reasonable and accurate assumptions and provide cost
effective solutions to environmental, health and safety problems. As such, we have
recommended that the Department take action to ensure that the study of the U-Plant is based on
complete and accurate data and that the results are adequately considered and reflected in the
Department's Record of Decision.

MANAGEMENT REACTION

The Acting Assistant Secretary for Environmental Management (EM) generally concurred with
the recommendations in the report. In its initial comments and subsequent addendum, EM
recognized that there were weaknesses in the early cost estimates. To ensure that the use of
canyons are maximized in the future, management committed to identify waste disposal
possibilities in current and near-term feasibility studies and modify the approved Record of
Decision as appropriate. In addition, EM committed to assure that the appropriate level of
oversight and review will be provided to ensure that decisions are based on sound technical,
safety, and programmatic evaluations. We consider management's comments responsive to our
recommendations.

Attachment

cc: Under Secretary for Energy, Science and Environment
    Acting Assistant Secretary for Environmental Management
REPORT ON THE DEPARTMENT OF ENERGY EFFORTS TO DISPOSE
OF HANFORD'S CHEMICAL SEPARATION FACILITIES_____________


TABLE OF
CONTENTS


  Evaluation of Disposal Alternatives

  Details of Finding                                                                                                            1

  Recommendations and Comments                                                                                                  4

  Comments                                                                                                                      5


  Appendices

  1. U-Plant Canyon Pilot ...................................................................................................   7

  2. Objective, Scope, and Methodology                                                                                          8
Evaluation of Disposal Alternatives

Background            The Hanford Site is home to five large canyon facilities that were
                      part of the Department's chemical separations process for many
                      years. Four of the five canyon facilities are no longer operational
                      and are awaiting disposition. Because of the nature of work
                      performed in these facilities, they are contaminated with mixed
                      wastes. A common method of dispositioning contaminated
                      facilities is to decontaminate them and either close them in place or
                      demolish them for disposal in a licensed disposal facility. The
                      ultimate disposal method is determined by completing a Remedial
                      Investigation/Feasibility Study (RI/FS) to identify the advantages
                      and risks for each alternative, selecting a preferred alternative, and
                      issuing a Record of Decision on the selected alternative.

                      Based on a 1995 concept paper, the Department decided to develop
                      a disposition path for the five canyon buildings and, study the
                      feasibility and potential cost savings available by using its canyon
                      facilities for waste disposal sites. The unique structure of the
                      canyons, three to five foot thick concrete walls and six to eight foot
                      thick foundations, made them particularly suited to being used as
                      disposal facilities. Preliminary estimates indicated that the use of
                      the five canyon facilities for disposal of on-site mixed and low-
                      activity waste could save the Department as much as $17 million
                      to $500 million in waste disposal costs at Hanford and could
                      reduce the need for additional disposal facility capacity. In 1996,
                      the Department formalized the concept through the Canyon
                      Disposition Initiative (Initiative) and tasked Bechtel Hanford Inc.
                      (Bechtel) with evaluating the disposition path for the U Plant
                      canyon building (see Appendix 1) and the potential feasibility and
                      cost savings of using the canyon for waste disposal. Because the
                      U-Plant had the lowest contamination level and gave engineers the
                      best opportunity to test equipment and procedures in a relatively
                      benign environment, it was selected as the pilot for the Initiative.

Waste Disposal Site   Bechtel did not conduct a thorough evaluation of the U-Plant to
Evaluation Methods    determine whether it could be used as a cost-effective waste
                      disposal site. While characterization efforts and structural studies
                      under the Initiative demonstrated that the U-Plant could meet land
                      disposal requirements, Bechtel did not identify and quantify
                      potential waste streams nor adequately study the economic benefits
                      of using the facility as a disposal site. When the Department began
                      considering the concept of disposing of waste in the canyon, mixed
                      waste and immobilized low-activity waste were seen as potential
                      waste streams for disposal at the U-Plant. However, when Bechtel
                      began performing the feasibility study, they neither pursued these
                      earlier waste streams nor identified additional potential waste
                      streams.


Page 1                                                                  Details of Finding
         Instead of studying potential streams, Bechtel simply inquired of
         program managers as to whether they had any waste they would
         like to dispose of in the U-Plant. When waste stream managers
         responded that they had planned to use existing or newly
         constructed land disposal facilities, Bechtel took no further action
         to identify candidate waste streams. Instead, Bechtel chose to
         establish an undefined or generic waste upon which to base its
         determination as to whether disposal in the canyons was
         economically feasible. As such, the cost comparison was general
         in nature and did not factor in treatment costs that are specific to
         mixed waste or higher classifications of low-level waste. Bechtel's
         cost study also did not include the cost of constructing new or
         expanding existing disposal facilities, both of which would have to
         occur should the canyons not be utilized for waste disposal.

         We further observed that Bechtel's cost study did not consider
         incremental costs for specific types of waste. Depending on the
         waste stream, disposal costs can vary significantly. When Bechtel
         performed the cost comparison it did not account for such
         variances even though cost and waste inventory data was available.
         Specifically, Richland maintains a database that describes the
         nature and type of waste streams at the Hanford reservation.
         Bechtel, however, did not take advantage of such information and
         did not fully consider the economic impact of storing differing
         types and quantities of waste in the U-Plant.

         In addition, Bechtel did not adequately consider the cost of
         building new or expanding existing land disposal facilities and
         other incremental expenses – costs that could have significantly
         impacted the economic viability of U-Plant storage. Currently, the
         Department operates three low-level waste disposal facilities at the
         Hanford Site and, according to the Hanford Solid Waste
         Environmental Impact Statement Record of Decision, has
         recommended that a new $212 million disposal facility be
         constructed to dispose of immobilized low-activity waste. In
         addition to this facility, Hanford also plans to construct as many as
         four new disposal cells at the Environmental Restoration Disposal
         Facility to accommodate its low-level waste inventory. Based on
         prior years' operating costs, each new disposal cell costs
         approximately $14 million to construct. However, these costs
         were not factored into Bechtel's cost study. We also noted that
         Bechtel had not considered or calculated the additional costs
         required for long-term surveillance and maintenance of the to-be-
         constructed disposal facilities.




Page 2                                                    Details of Finding
Project Focus and     The U-Plant was not adequately considered as a waste disposal
Oversight             site because Bechtel focused its efforts on technical aspects and did
                      not adequately consider economic benefits. While the technical
                      work was necessary and important, its completion provided only a
                      baseline determination as to whether the U-Plant was a viable
                      disposal site and did not provide insight as to whether the
                      Department could achieve overall cost savings. Rather than begin
                      to study the economical benefits of disposing of waste in the
                      canyons early on in the Initiative, Bechtel waited for five years to
                      begin the study. Because of time constraints, Bechtel determined
                      that it would perform only a limited review of waste streams and
                      disposal costs as part of the RI/FS.

                      In addition to timeliness and completeness issues, the Department
                      did not provide sufficient oversight to ensure that the cost study
                      was accurate and complete. In reviewing the Department's
                      involvement in the Initiative, we noted that it participated in
                      occasional meetings to discuss the more technical issues associated
                      with the U-Plant being used and permitted as a disposal facility.
                      However, the Department did not provide the oversight necessary
                      to ensure that the cost study was accurate and complete. For
                      example, when Bechtel informed the Department that it had not
                      found a waste stream and proposed using an undefined waste, the
                      Department accepted the proposal without considering the effect it
                      would have on the cost study.

                      We also learned that the Department did not review the cost study
                      completed by Bechtel in 2001. During the audit, we requested a
                      copy of the cost study from the Department to evaluate its
                      accuracy and the assumptions used. Project managers responsible
                      for oversight of the Initiative told us that they did not have a copy
                      of the study and had not reviewed it prior to deciding to accept
                      Bechtel's approach. Had the Department obtained and reviewed
                      key assumptions contained in the cost study, it may have noted that
                      the key project assumptions, such as use of an undefined waste
                      form, unnecessarily limited the potential cost savings of using the
                      U-Plant as a waste disposal site.

Unrealized Benefits   The Department may not realize savings varying from $17 million
                      to $500 million in waste disposal costs if it does not thoroughly
                      evaluate the feasibility of using the canyon facilities to dispose of
                      additional waste. Further, the Department may unnecessarily
                      expand or construct additional disposal sites at Hanford, thereby
                      increasing its footprint for long-term monitoring once cleanup sites
                      are closed.



Page 3                                                                 Details of Finding
RECOMMENDATIONS   We recommend that the Acting Assistant Secretary for
                  Environmental Management:

                  1.   Require the Manager, Richland Operations Office, to
                       continue to pursue the Canyon Disposition Initiative by:

                       a.   Having the contractor:

                              i.   Consider all potential waste types at the Hanford
                                   Site as part of the cost study; and,

                             ii.   Perform a more detailed cost study which takes
                                   into consideration the disposal cost for candidate
                                   waste types, the cost of expanding existing or
                                   constructing new disposal facilities, and the long
                                   term monitoring costs.

                       b.   Providing adequate oversight and review of the study to
                            ensure that assumptions are reasonable and costs are
                            complete and accurate; and,

                       c.   Ensuring that the results of the study are adequately
                            considered and reflected in the Department's Record of
                            Decision.

                  2.   Consider the viability of disposing of waste in canyon and
                       similar facilities at Idaho and Savannah River sites based on
                       the results of the Richland study.


MANAGEMENT        In responding to the draft report, the Acting Assistant Secretary
REACTION          for Environmental Management (EM) stated that, in general, the
                  Department agreed with the report's recommendations. However,
                  some of EM's comments on the report were not completely
                  consistent with the recommendations. EM provided an addendum
                  to clarify its position on these issues. In its response, EM
                  recognized that there were weaknesses in the early cost estimates.
                  To ensure that the use of canyons are maximized in the future,
                  management committed to identify waste disposal possibilities in
                  current and near term feasibility studies and modify the approved
                  Record of Decision as appropriate. In addition, EM committed to
                  providing an appropriate level of oversight and review to ensure




Page 4                                        Recommendations and Comments
                   that decisions are based on sound technical, safety, and
                   programmatic evaluations.

                   Although management concurred with the recommendations, it had
                   some concerns with the content and overall tone of the report.
                   Specifically, management stated that:

                      1. Work was performed with frequent and open
                         communication with all regulatory parties to ensure it was
                         consistent with the objectives for the Initiative and that the
                         effort resulted in an overall positive impact;

                      2. The primary objective of the Initiative was to develop a
                         viable disposition path for the five canyon buildings at the
                         Hanford Site and not to determine the feasibility and
                         benefit of using the canyons as disposal sites. The disposal
                         of waste in the canyons was seen as a significant potential
                         benefit; and,

                      3. The decision to eliminate immobilized low-activity waste
                         as a viable waste stream for the canyons was the result of
                         an informed decision to avoid jeopardizing compliance
                         with Tri-Party Agreement milestones.


AUDITOR RESPONSE   We consider management's comments to be responsive to the
                   report's recommendations. However, we believe that the report
                   content is accurate. We noted that there was communication with
                   all regulatory parties during the course of the study. Nevertheless,
                   this communication frequently dealt with permitting the facility as
                   a disposal site and did not focus on the economic benefits
                   addressed in the report.

                   Management also indicated that the primary objective of the
                   Initiative was to develop a viable disposition path for the five
                   canyons and not to determine the feasibility and benefit of using
                   the canyons as disposal sites. While the Initiative does address the
                   disposition of the five canyons at Hanford, determining if waste
                   could be disposed of in the canyons was one of the primary
                   drivers. In fact, had the focus not been the potential to dispose of
                   waste inside the facility, the disposition path of the canyon would
                   have followed the normal Comprehensive Environmental Response
                   and Compensation Liability Act guidelines and would not have
                   taken place until 2020. However, because the driver of the project
                   was the disposal of waste inside and around the canyon, the
                   Initiative's Agreement in Principle stressed that the decision to


Page 5                                                                    Comments
         dispose of wastes in the canyons was "time critical" to ensure that
         waste candidates for disposal were available in the planning time
         frame." If waste disposal was not a primary factor there would
         have been no "time critical" issues or concerns about waste
         availability for the canyons.

         Management also stated that it made an informed decision to
         eliminate immobilized low-activity waste as a viable waste stream
         for disposal in the canyons to avoid jeopardizing milestones.
         Management anticipated that the Initiative would not be completed
         in time to accommodate the disposal of immobilized low-activity
         waste. While we do not disagree with management for making
         such an informed decision, such action corroborates our earlier
         statement that the intent of the Initiative was to determine the
         feasibility of disposing of waste in the canyon facilities and that
         the timing of the Initiative was critical to accomplish that
         objective.

         Finally, Management asserts that a provision allows for the Record
         of Decision to be modified if an appropriate waste is identified.
         We agree that the Record of Decision can be modified; however,
         such modification should be based on a complete study of disposal
         alternatives. Management's plan to study alternative waste streams
         is a responsive step in achieving a meaningful Record of Decision.




Page 6                                                          Comments
Appendix 1




Page 7       U-Plant Canyon Pilot
Appendix 2

OBJECTIVE     To determine whether the Department adequately considered using
              the U-Plant as a waste disposal site.


SCOPE         We conducted the audit from March 2004 to July 2004, at the
              Hanford Site in Richland, Washington. The scope of the audit
              covered the Department's Canyon Disposition Initiative.


METHODOLOGY   To accomplish the audit objective, we:
                 •   Obtained and reviewed the original concept papers and the
                     1996 Agreement in Principle signed by the Tri-Parties
                     supporting work done under the Initiative;

                 •   Reviewed cost and technical data supporting the RI/FS;

                 •   Researched Federal and Departmental regulations;

                 •   Assessed internal controls and performance measures
                     established under the Government Performance and Results
                     Act of 1993; and,

                 •   Interviewed key personnel in the Richland Operations
                     Office, the Office of River Protection and Bechtel Hanford
                     Incorporated.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              We assessed internal controls established under the Government
              Performance and Results Act of 1993 as they relate to the
              Initiative. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. We did not conduct a
              reliability assessment of computer-processed data because no
              computer-processed data was used during the audit.

              We held an exit conference with management on December 6,
              2004.




Page 8                                   Objective, Scope, and Methodology
                                                                    IG Report No. DOE/IG-0672

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
